   D
                                                                   EMPLOYMENT AND TRAINING

U.S. Department of Labor
   O
   E
   S                                                               ADMINISTRATION
   ’




                     Office of Inspector General—Office of Audit




                                                                   DISTRICT OF COLUMBIA DEPARTMENT OF
                                                                   EMPLOYMENT SERVICES DID NOT HAVE
                                                                   ADEQUATE CONTROLS FOR THE FINANCIAL
                                                                   MANAGEMENT OF FUNDS FOR GRANTS
                                                                   AWARDED BY ETA




                                                                                      Date Issued:     March 28, 2013
                                                                                   Report Number:    03-13-001-03-315
U.S. Department of Labor                                  March 2013
Office of Inspector General
Office of Audit
                                                          DISTRICT OF COLUMBIA DEPARTMENT OF
                                                          EMPLOYMENT SERVICES DID NOT HAVE
                                                          ADEQUATE CONTROLS FOR THE FINANCIAL
BRIEFLY…                                                  MANAGEMENT OF FUNDS FOR GRANTS
Highlights of Report Number 03-13-001-03-315, issued      AWARDED BY ETA
to the Assistant Secretary for Employment and Training.
                                                          WHAT OIG FOUND

WHY READ THE REPORT                                       DC DOES did not have sufficient controls and
                                                          processes in place to ensure costs claimed for ETA
The District of Columbia (DC) Department of               grants were adequately supported by the general ledger
Employment Services (DC DOES) is responsible for          and were reasonable, allocable, and allowable as set
administering and providing workforce services,           forth in federal cost principles. Specifically, we found
including Unemployment Insurance, to DC residents.        that DC DOES: (1) improperly charged more than
For the past three fiscal years, DC DOES received an      $5 million in indirect non-personnel services fixed costs
average of approximately $25 million annually in grant    to ETA grants that represented estimated budgets
funds from the Department of Labor’s (DOL)                rather than actual amounts; (2) could not provide
Employment and Training Administration (ETA) for          adequate support for journal vouchers that had a net
various workforce investment programs.                    effect of increasing charges to ETA grants by more than
                                                          $2.8 million; (3) did not ensure that employees who
                                                          worked on multiple grants reported the actual time
WHY OIG CONDUCTED THE AUDIT                               worked on each ETA grant; (4) did not ensure that time
                                                          charged for administrative, support, and technical
The Assistant Secretary for Employment and Training       services activities was related to DC DOES; and
requested that we audit DC DOES’ financial                (5) could not support the basis it used to split
administration of workforce grants awarded by ETA.        non-personnel services cost among multiple grants for
ETA identified significant problems during its fiscal     4 invoices, totaling $169,240, of which $6,729 was
monitoring review of DC DOES.                             charged to ETA grants.

Our audit objective was to answer the following           These problems occurred because DC DOES either did
question:                                                 not follow established DC Office of the Chief Financial
                                                          Officer policies and procedures, or the policies and
  Did DC DOES have sufficient controls and processes      procedures in place were not adequate to ensure costs
  in place to ensure costs claimed for ETA grants were    claimed were properly supported and in compliance
  supported by the general ledger and were                with ETA and federal requirements. As a result, we
  reasonable, allocable, and allowable as set forth in    questioned approximately $8.8 million in expenditures
  federal cost principles?                                charged to ETA grants.

Our audit encompassed 49 grants totaling $89 million      We also identified two issues related to DC DOES’
for the period October 1, 2008, through                   Federal Financial Reports for which the agency took
December 31, 2011. We tested a statistical sample of      corrective action before we completed our field work.
460 expenditures totaling $23 million, and a judgmental
sample of an additional 72 expenditures totaling          WHAT OIG RECOMMENDED
$2 million to determine if they were reasonable,
allocable, and allowable; and reconciled DC DOES’         We made seven recommendations that ETA require DC
$64 million in reported expenditures with its general     DOES to either comply with established policies and
ledger.                                                   procedures related to its financial administration of ETA
                                                          grants; or where inadequate or lacking, to improve,
                                                          develop, and implement applicable policies and
READ THE FULL REPORT                                      procedures. We also recommended that ETA recover
To view the report, including the scope, methodology,     the $8.8 million in costs questioned in our audit.
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2013/03-13-      Both ETA and DC DOES agreed with the
001-03-315.pdf.                                           recommendations and stated that they have either
                                                          initiated or completed corrective actions to address all
                                                          eight recommendations.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   DC DOES Financial Management of ETA Grants
                                   Report No. 03-13-001-03-315
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results in Brief .............................................................................................................. 2

Objective — Did DC DOES have sufficient controls in place to ensure costs
            claimed for ETA grants were supported, reasonable, allocable, and
            allowable as set forth in federal cost principles? ................................. 4
        DC DOES lack of controls over ETA grant funds resulted in $8.8 million in
        questioned costs. ................................................................................................... 4

        Finding 1 — DC DOES did not charge actual indirect non-personnel fixed
                    costs to ETA grants. .......................................................................... 4
        Finding 2 — Journal vouchers were not adquately supported. .............................. 6
        Finding 3 — DC DOES staff working on multiple grants used estimated
                    time to charge ETA grants. ................................................................ 7
        Finding 4 — Administrative, support, and technical services costs for DC
                    Office of Chief Financial Officer staff charged to ETA grants
                    were not accurate. ............................................................................. 7
        Finding 5 — Invoices for non-personnel services expenditures did not have
                    support on how costs were split among multiple grants. .................... 8
        Other Issues .......................................................................................................... 9

Recommendations ...................................................................................................... 10

Exhibit
        Exhibit Journal Vouchers That Were Not Adquately Supported........................... 15

Appendices
        Appendix A Background ...................................................................................... 19
        Appendix B Objective, Scope, Methodology, and Criteria.................................... 21
        Appendix C Acronyms ......................................................................................... 25
        Appendix D ETA Response to Draft Report ......................................................... 27
        Appendix E DC DOES Response to Draft Report ................................................ 29
        Appendix F Acknowledgements ........................................................................... 35




                                                                     DC DOES Financial Management of ETA Grants
                                                                                     Report No. 03-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   DC DOES Financial Management of ETA Grants
                                   Report No. 03-13-001-03-315
                                                    U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                          Office of Inspector General
                                                  Washington, D.C. 20210




March 28, 2013

                             Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, N.W.
Washington, DC 20210

The U.S. Department of Labor’s (DOL) Assistant Secretary for Employment and Training
requested that we audit the District of Columbia (DC) Department of Employment
Services’ (DC DOES) financial administration of workforce grants awarded by DOL’s
Employment and Training Administration (ETA). ETA identified significant problems
during its fiscal monitoring review of DC DOES. DC DOES is responsible for
administering and providing workforce services, including Unemployment Insurance, to
DC residents. For the past three fiscal years, DC DOES received an average of
approximately $25 million annually in grant funds from ETA for various workforce
investment programs. While DC DOES had overall responsibility for reporting grant costs
to ETA, DC’s Office of the Chief Financial Officer (OCFO) performed the accounting
functions for DC DOES’ financial activities and reporting. Office of Management and
Budget (OMB) Circular A-87 establishes the principles and standards for determining
costs for federal awards carried out through grants, cost reimbursement contracts, and
other agreements with state and local governments and federally-recognized Indian tribal
governments.

Our audit objective was to answer the following question:

        Did DC DOES have sufficient controls and processes in place to ensure costs
        claimed for ETA grants were supported by the general ledger and were
        reasonable, allocable, and allowable as set forth in federal cost principles?

Our audit encompassed 49 grants totaling $89 million for the period October 1, 2008,
through December 31, 2011. 1 We tested a statistical sample of 460 expenditures
totaling $23 million and a judgmental sample of an additional 72 expenditures totaling
$2 million to determine if they were reasonable, allocable, and allowable; and reconciled
DC DOES’ $64 million in reported expenditures with its general ledger. We also

1
 Our review covered costs charged for DC DOES employees who charged time to multiple programs during the
period October 1, 2011, through August 25, 2012.


                                                            DC DOES Financial Management of ETA Grants
                                                      1                     Report No. 03-13-001-03-315
                                                       U.S. Department of Labor – Office of Inspector General



obtained an understanding of DC DOES’ internal controls through walkthroughs and
interviews with its key officials, as well as ETA regional office staff. Our audit did not
include a review of ETA’s grant monitoring procedures.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.


RESULTS IN BRIEF

DC DOES did not have sufficient controls and processes in place to ensure costs
claimed for ETA grants were adequately supported by the general ledger and were
reasonable, allocable, and allowable as set forth in federal cost principles. Specifically,
we found the following:

    •   DC DOES improperly charged more than $5 million in indirect non-personnel
        services fixed costs to ETA grants that represented estimated budgets rather
        than actual amounts.

    •   DC DOES could not provide adequate support for 49 of 84 journal vouchers2 that
        it used to reclassify expenses, adjust amounts, and/or transfer costs between
        grants. These 49 journal vouchers had a net effect of increasing charges to ETA
        grants by more than $2.8 million.

    •   Fifteen DC DOES employees who worked on multiple grants used predetermined
        estimates instead of actual hours to report their time worked on each ETA grant,
        resulting in $957,661 in improper charges for these 15 employees.

    •   Ten DC OCFO employees charged 100 percent of their time to the DC DOES
        administrative, support, and technical services cost account when they also
        worked on administrative, support, and technical services activities not related to
        DC DOES. Conversely, 12 DC OCFO employees worked on DC DOES activities
        but did not charge time to the DC DOES administrative, support, and technical
        services cost account. The net effect was $43,840 in undercharges to ETA
        grants for FY 2011; however, DC DOES did not have records available to allow
        for the calculation of the proper administrative, support, and technical services
        charges for FYs 2009 and 2010.


2
 The 49 journal vouchers totaled more than $10.8 million and represented the absolute value of the journal vouchers,
meaning the transactions consisted of increases and decreases of expenditures to the grants. The net amount
charged to ETA grants totaled more than $2.8 million.

                                                              DC DOES Financial Management of ETA Grants
                                                         2                    Report No. 03-13-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



   •   DC DOES could not support the basis it used to split non-personnel services cost
       among multiple grants for 4 invoices totaling $169,240, of which $6,729 was
       charged to ETA grants.

These problems occurred because DC DOES either did not follow established OCFO
policies and procedures, or the OCFO policies and procedures in place were not
adequate to ensure costs claimed were properly supported and in compliance with ETA
and federal requirements for grants management. As a result, we questioned
approximately $8.8 million in expenditures charged to ETA grants.

During the course of our audit, we also identified the following two issues for which DC
DOES took corrective action before we completed our field work:

   1. Cumulative expenditures, as of December 31, 2011, in DC DOES’ general ledger
      did not reconcile to the cumulative amounts reported in its Federal Financial
      Reports (FFR) submitted to ETA. Our reconciliation showed the expenditures on
      five FFRs were overstated by more than $500,000. DC DOES developed policies
      and procedures — effective August 2012 — requiring FFRs to be reconciled to the
      general ledger before they are submitted to ETA and that any differences be fully
      explained and documented. DC DOES corrected and resubmitted the FFRs to
      ETA.

   2. DC DOES did not submit timely to ETA any of its 54 FFRs for the quarter ending
      September 2011. DC DOES implemented policies and procedures establishing
      time frames for submitting FFRs to ETA. We reviewed the March 31, 2012, FFRs
      and found all were submitted timely.

We recommended that the Assistant Secretary for Employment and Training require DC
DOES to strengthen its policies and procedures to ensure estimated non-personnel
services fixed costs are adjusted to actual and that journal vouchers are adequately
supported. We also recommended that DC DOES develop and implement policies and
procedures requiring employees to charge their time based on actual hours worked or
ensure their time is adjusted to actual when estimates are used; charge administrative,
support, and technical services costs to ETA grants based on actual time worked; and
maintain documentation to support the basis for splitting costs for services that benefit
multiple grants. Finally, we recommended that ETA recover $8.8 million in questioned
costs DC DOES improperly charged to ETA grants.

Both ETA and DC DOES agreed with the recommendations and stated that they have
either initiated or completed corrective actions to address all eight recommendations.
ETA’s and DC DOES’ responses are included in their entirety in Appendices D and E,
respectively.




                                                DC DOES Financial Management of ETA Grants
                                            3                   Report No. 03-13-001-03-315
                                           U.S. Department of Labor – Office of Inspector General



RESULTS AND FINDINGS

Objective — Did DC DOES have sufficient controls in place to ensure costs
            claimed for ETA grants were supported, reasonable, allocable, and
            allowable as set forth in federal cost principles?

      DC DOES lack of controls over ETA grant funds resulted in $8.8 million in
      questioned costs.

DC DOES did not have sufficient controls and processes in place to ensure costs
claimed for ETA grants were adequately supported by the general ledger and were
reasonable, allocable, and allowable as set forth in federal cost principles. Our review of
532 transactions totaling more than $25.4 million found that: (1) DC DOES did not
charge actual indirect non-personnel services fixed costs to ETA grants; (2) DC DOES
could not provide adequate support for 49 journal vouchers; (3) DC DOES employees
working on multiple grants used estimated time to charge ETA grants;
(4) administrative, support, and technical services costs for DC CFO staff charged to
ETA grants were not accurate; and (5) invoices for non-personnel services expenditures
did not have support on how costs were split among multiple grants. We also identified
two findings related to the reporting of costs to ETA for which DC DOES took corrective
action before we completed our field work. We questioned approximately $8.8 million in
expenditures charged to ETA grants.

Finding 1 — DC DOES did not charge actual indirect non-personnel fixed costs to
            ETA grants.

DC DOES improperly charged $5,055,841 in indirect non-personnel services fixed costs
to ETA grants that represented estimated budgets rather than actual amounts. This
occurred because DC DOES did not follow established policies and procedures
requiring estimated allocations to be adjusted to actual amounts. As a result, we
questioned $5,055,841 in indirect non-personnel services fixed costs charged to ETA
grants for FYs 2009 through 2011.

According to the approved indirect cost allocation plan, DC DOES was supposed to use
information from DC’s time distribution system — the Financial Accounting and
Reporting System (FARS) — to allocate indirect non-personnel services fixed costs to
ETA grants. Examples of indirect non-personnel services fixed costs are rent, utilities,
interest payments, and janitorial and security services.

According to the DC OCFO policies and procedures manual and discussion with DC
OCFO officials, the following process is supposed to be used to allocate indirect
non-personnel services fixed costs to ETA grants. At the start of the fiscal year, as part
of the budget process, the DC Office of Budget and Planning provides all DC agencies
with budgeted amounts for the various indirect non-personnel services fixed costs
based on the number of properties used by the respective agency, and the associated
utilities, management costs, and telecommunications. DC agencies then transfer funds

                                                 DC DOES Financial Management of ETA Grants
                                             4                   Report No. 03-13-001-03-315
                                           U.S. Department of Labor – Office of Inspector General



to the DC Office of Finance and Resource Management (OFRM) and record the
transactions into the DC System of Accounting and Reporting (SOAR) general ledger.
OFRM bills DC agencies monthly for their portion of the indirect non-personnel services
fixed costs. OFRM uses the budgeted fixed costs as the basis for the billing, and DC
agencies are then supposed to allocate OFRM’s billed costs to each agency program
and grant. On a monthly basis the agency must compare budgeted fixed costs to actual
costs. If the actual amount is more than the amount billed, OFRM notifies the agency of
the additional amount to be remitted. If the actual costs are less than the budgeted,
OFRM issues a refund.

For the audit period, FY 2009 through the first quarter of FY 2012, DC DOES charged
$5,055,841 for indirect non-personnel services fixed costs to ETA grants, as follows:

             Table – Non-Personnel Services Fixed Costs Charged to
                       ETA Grants FY 2009 Through First Quarter 2012
             Non-Personnel Services SOAR Account              Dollars
             Energy, Commercial & Building Rental         $ 231,532
             Occupancy Fixed Costs                            183,071
             Rentals - Land & Structures                    2,585,169
             Security Services                              1,142,809
             Telephone                                        913,260
             Total                                        $5,055,841

However, DC DOES could not support that it had used data from FARS to allocate
indirect non-personnel services fixed costs to ETA grants, as required by the approved
cost allocation plan. DC DOES was unable to provide any schedules for FYs 2009 and
2010; and the schedule it had for FY 2011 did not reconcile to actual full-time equivalent
(FTE) data available in FARS. DC OCFO officials told us they did not know if the
adjustments from budgeted to actual costs were made for FYs 2009 and 2010. For
FY 2011, DC OCFO provided a journal voucher that showed agency program costs
billed for each type of indirect non-personnel services fixed cost. However, these costs
appeared to be based on budgeted FTEs because they did not reconcile back to our
calculations that we made based on actual FTE data from FARS.

Because DC DOES did not base costs on actual current-year FTEs, some grants could
be under or over charged. For example, for FY 2011, DC DOES charged rent cost
totaling $1,227,714 to three ETA grants. Using actual FTEs, we determined DC DOES
should have charged $691,112 to these grants, resulting in an overcharge of $536,602.

DC DOES had policies and procedures in place; however, they lacked sufficient details
regarding how and when adjustments from budget to actual costs should be performed.
DC OCFO officials agreed that detailed policies and procedures are needed to ensure
proper controls are in place to effectively manage indirect non-personnel services costs.



                                                 DC DOES Financial Management of ETA Grants
                                            5                    Report No. 03-13-001-03-315
                                                        U.S. Department of Labor – Office of Inspector General



Finding 2 — Journal vouchers were not adquately supported.

Our testing of 84 journal vouchers that DC DOES used to adjust or transfer costs
between grants found that DC DOES did not have adequate support for 49 of the
journal vouchers, totaling $10,834,955. 3 The net amount charged to ETA grants totaled
$2,833,589. This occurred because DC DOES did not follow established policies and
procedures requiring support to be maintained that explained the reason and
justification for the transactions. As a result, we questioned $2,833,589 for the
unsupported adjustments and transfers to ETA grants (see the Exhibit).

OMB Circular A-87, Attachment A, Section (A)(C)(1)(J), requires that to be allowable
under federal awards, costs must be adequately documented.

DC OCFO Policies and Procedures Manual, Volume 1, Section 10551000.30 (A),
General Accounting Posting and Reconciliation, states:

         All transactions shall be posted to SOAR within 24 to 48 hours of the
         accounting event. Each agency must maintain in the agency files signed,
         approved, and fully documented copies of all SOAR transactions (e.g.,
         journal entries) entered during the fiscal year. These copies must be fully
         retrievable, upon request, for review by the auditors or by the OCFO.
         SOAR transaction (journal entry) descriptions should clearly identify and
         explain the financial event being recorded, or the reason for adjustment. In
         addition, supporting documentation, explaining or justifying the
         transaction, should be attached to, or referenced in SOAR transaction
         document.

Our review of 84 journal vouchers found that the documentation DC DOES maintained
for 49 (58 percent) of the journal vouchers did not sufficiently explain the reasons and
justifications for the transactions. For example, documentation maintained for one
journal voucher, a $208,602 non-personnel services expenditure, noted that the
transaction was to “transfer non-personnel services expenditures from Workforce
Investment Act (WIA) local funds to WIA federal funds.” The documentation did not
provide a basis for what expenses made up the $208,602 and why it was being
transferred.

For 4 the 49 journal vouchers totaling $20,610, DC DOES reclassified expenses from a
current grant phase year to a prior grant phase year. 4 While the ETA grant funds DC
DOES received are allowed to be expensed within a 3-year period after the grant
award, it must be readily determinable what costs are being charged to each grant year.
As such, when DC DOES made a journal entry to move expenses from one grant phase


3
  This amount represented the absolute the value of the journal vouchers, as the transactions for the journal vouchers
consisted of increases and decreases in grant expenditures.
4
  Most ETA grants provide a 3-year time period to expend the funds. For reporting purposes, grantees classify the
expenditures in phase years.

                                                               DC DOES Financial Management of ETA Grants
                                                          6                    Report No. 03-13-001-03-315
                                                          U.S. Department of Labor – Office of Inspector General



year to a prior grant phase year, a detailed account of the expenses should have been
maintained as support for the journal entry.

While journal vouchers provide DC DOES the ability to accurately adjust expenditures
between general ledger accounts, if the reasons for the adjustments are not adequately
supported and the amounts are significant, there is an increased risk for errors and
inappropriate transfer of expenditures between grants.

Finding 3 — DC DOES staff working on multiple grants used estimated time to
            charge ETA grants.

Our testing of a judgmental sample of 22 DC DOES employees who worked on multiple
grants found that 15 used predetermined estimates instead of actual hours to report
their time worked on each grant. This occurred because DC DOES did not have policies
and procedures requiring employees to charge their time based on actual hours worked
or to adjust their time worked to actual hours when estimates were used. As a result, we
questioned $957,661 5 that DC DOES charged for these 15 employees.

OMB Circular A-87, Section 8h (5)(a), requires personnel activity reports or equivalent
documentation which reflect an after-the-fact distribution of the actual activity for each
employee. Section (5)(e) states that budget estimates or other distribution percentages
determined before the services are performed do not qualify as support for charges to
federal awards, but may be used for interim accounting purposes, provided that at least
quarterly comparison of actual costs to budgeted distributions based on monthly activity
reports are made.

We identified 67 employees who worked at DC DOES One-Stop centers in FY 2012
and could potentially work on more than one program. For the 22 employees we
interviewed, 7 told us they use actual hours to report time worked on activities and
15 told us they used pre-determined percentages to report time worked on activities.
For example, a One-Stop supervisor explained that she was instructed to have her
employees report their time based on pre-determined percentages. The employees’
times sheets were pre-populated with an 80, 10, 10 percentage split for the codes used
for the Employment Service, WIA Dislocated Worker, and the WIA Adult programs
respectively.

Finding 4 — Administrative, support, and technical services costs for DC Office
            of Chief Financial Officer staff charged to ETA grants were not
            accurate.

We identified 10 DC OCFO employees who improperly charged 100 percent of their
time to the DC DOES administrative, support, and technical services cost account when
they also worked on administrative, support, and technical services activities unrelated
to DC DOES. Conversely, we identified 12 DC OCFO employees who worked on DC

5
    This figure is based on charges to ETA grants for the period of October 1, 2011, through August 25, 2012.

                                                                 DC DOES Financial Management of ETA Grants
                                                            7                    Report No. 03-13-001-03-315
                                                      U.S. Department of Labor – Office of Inspector General



DOES activities, but did not charge time to the DC DOES administrative, support, and
technical services cost account. These timekeeping errors occurred because DC OCFO
did not have policies and procedures in place to require employees to charge
administrative, support, and technical services costs to ETA grants based on actual
hours worked. Although we calculated the net effect to be a $43,840 undercharge to
ETA grants, 6 without proper timekeeping controls, ETA grants are at risk of being
overcharged for administrative, support, and technical costs.

OMB Circular A-87, Section 8h (5)(a), requires personnel activity reports or equivalent
documentation which reflect an after-the-fact distribution of the actual activity for each
employee. Section 8h (5)(e) states that budget estimates or other distribution
percentages determined before the services are performed do not qualify as support for
charges to federal awards, but may be used for interim accounting purposes provided
that at least quarterly comparison of actual costs to budgeted distributions based on
monthly activity reports are made.

The DC OCFO provides financial accounting and reporting services for all the DC
agencies’ programs. The DC agencies are grouped into five different clusters. DC
DOES is 1 of 20 agencies in the Economic Development and Regulation Cluster
(EDRC). Since the time for these DC OCFO employees cannot be readily identified with
specific grant-funded programs, their personnel services and fringe benefit expenses
are classified as an indirect administrative, support, and technical services cost. DC
OCFO policies and procedures required employees to charge time spent on the EDRC
to “Agency-Wide Allocation (Project 9998).” The time is then captured in DC DOES’
FARS, which was designed to calculate the amount of costs to be allocated to DC
DOES grants.

We identified 19 employees who charged 100 percent of their time to DC DOES
administrative, support, and technical services in FY 2011. However, 10 of these
employees actually worked varying percentages of their time on non-DC DOES
administrative, support, and technical services activities. Therefore, the amount of
administrative, support, and technical services costs charged to ETA grants was
overstated by $183,562. We also identified 12 DC OCFO employees who in FY 2011
worked on, but did not charge time to, DC DOES administrative, support, and technical
services activities, resulting in an undercharge of $227,402 to ETA grants. Overall, the
undercharge to ETA grants was $43,840. However, DC DOES did not have records
available to allow for calculation of the proper administrative, support, and technical
services charges for FYs 2009 and 2010.

Finding 5 — Invoices for non-personnel services expenditures did not have
            support on how costs were split among multiple grants.

During our testing of non-personnel services expenditures, we found 4 invoices totaling
$169,240 in which the costs were split among multiple grants. However, DC DOES
6
  DC DOES did not have records available to calculate the proper charges for FYs 2009 and 2010. Therefore, the net
effect we calculated related to FY 2011 only.

                                                             DC DOES Financial Management of ETA Grants
                                                        8                    Report No. 03-13-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



could not provide support as to how it determined the basis for splitting the costs
because it had no policies and procedures to require this. As a result, we questioned
$6,729, the total amount charged to ETA grants.

OMB Circular A-87, Appendix A, Section (C)(3)(a), states “A cost is allocable to a
particular cost objective if the goods or services involved are chargeable or assignable
to such costs objective in accordance with relative benefits received.”

DC DOES officials told us that when an invoice was to be split among various grants,
the percentages to be charged to each grant were determined by DC DOES program
officials. DC DOES officials communicated the rationale for these percentages to DC
OCFO either verbally or by email. However, DC DOES program officials were unable to
provide any support to justify that the percentages were based on benefits received.

Other Issues

During our audit, we reconciled expenditures DC DOES reported to ETA on the FFRs to
the SOAR general ledger, and tested the timeliness of DC DOES’ filing of the quarterly
FFRs.

We were initially unable to reconcile cumulative expenditures for five grants to the
SOAR general ledger. DC DOES reported cumulative expenditures totaling $4,481,472
on the FFR for the five grants. However, the SOAR general ledger for these grants
supported expenditures of only $3,430,577, a difference of $1,050,895. DC OCFO
officials researched the differences and found that the general ledger did not reflect
journal vouchers posted after the final FFRS were sent to ETA. DC OCFO officials
provided us sufficient evidence to support the difference. DC OCFO officials
implemented corrective actions to ensure journal vouchers were entered timely into the
SOAR general ledger. Effective August, 2012, the DC OFCO revised its policies and
procedures to ensure that journal vouchers for adjustments needed in reconciling
expenditures reported on the quarterly FFRs (ETA 9130) to expenditures in the SOAR
general ledger are submitted and recorded within 5 business days. We reviewed the
revised policy and procedure and concluded they were sufficient to ensure that the
FFRs will be supported by the SOAR general ledger. DC DOES also corrected the
FFRs in question and resubmitted them to ETA.

To determine if DC DOES filed FFRs within the required 45 calendar days after the end
of each reporting period, we tested the filing of FFRs for the quarters ended
September 30, 2009, 2010, 2011, and December 31, 2012. Our testing revealed that
DC DOES filed 54 FFRs late for the quarter ending September 30, 2011. This occurred
because DC DOES did not have policies and procedures ensuring that the FFRs were
filed within 45 days after the quarter ended. As a result of our audit, DC DOES took
corrective action and implemented policies and procedures, effective August 2012,
requiring that FFRs be filed within the required 45 days. During our field-work we tested
the timeliness FFR filings for the quarters ending March 31, 2012, and found all were
filed within the required 45 calendar days.


                                                DC DOES Financial Management of ETA Grants
                                            9                   Report No. 03-13-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training require DC DOES
to:

1. Comply with established policies and procedures for allocating non-personnel
   services fixed costs based on FARS actual labor distributions, including monthly
   adjustments to actual amounts when estimates are used.

2. Improve established policies and procedures to ensure they sufficiently describe the
   process for adjusting allocated non-personnel services fixed costs from budget to
   actual using the FARS data and the detailed documentation to be maintained for the
   journal vouchers used to record the adjustments in the SOAR general ledger.

3. Comply with established policies and procedures requiring adequate documentation
   be maintained with journal vouchers that provide a basis for the transactions.

4. Develop and implement policies and procedures requiring employees to charge their
   time based on actual hours worked or ensure they adjusted their time to actual when
   estimates were used.

5. Develop and implement policies and procedures to ensure administrative, support,
   and technical costs charged to ETA grants are based on actual time charges.

6. Calculate the proper administrative, support, and technical costs for DC OFCO staff
   that should have been charged to ETA grants for FYs 2009 and 2010, and recover
   any overcharges.

7. Develop and implement policies and procedures requiring that adequate support be
   maintained that provides a basis for splitting costs for purchase orders for services
   that benefit multiple grants.

We also recommend the Assistant Secretary for Employment and Training:

8. Determine and recover any overcharges relating to the $5,055,841 of indirect
   non-personnel services costs questioned that should have been charged to ETA
   grants based on FARS actual labor distributions; recover $2,833,589 representing
   the net increase to ETA grants for the journal vouchers that DC DOES could not
   support; recover $957,661 in personnel services expenses charged to ETA grants
   for the 15 employees whose hours were based on estimates; and recover $6,729
   charged to ETA grants for invoices split among multiple grants that DC DOES could
   not support.




                                                DC DOES Financial Management of ETA Grants
                                           10                   Report No. 03-13-001-03-315
                                         U.S. Department of Labor – Office of Inspector General



We appreciate the cooperation and courtesies that ETA and DC DOES officials
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                               DC DOES Financial Management of ETA Grants
                                          11                   Report No. 03-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   DC DOES Financial Management of ETA Grants
              12                   Report No. 03-13-001-03-315
          U.S. Department of Labor – Office of Inspector General




Exhibit




                DC DOES Financial Management of ETA Grants
           13                   Report No. 03-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   DC DOES Financial Management of ETA Grants
              14                   Report No. 03-13-001-03-315
                                       U.S. Department of Labor – Office of Inspector General



                                                                                    Exhibit
Journal Vouchers That Were Not Adquately Supported

                                     Document
Count           Account               Number           Amount             ETA Grant
   1.   Other Services & Charges   JARCLSG1        $     (569,438)     2011/11-2100UI
   2.   Other Services & Charges   JARCLSG1              (200,000)     2011/10-2100UI
   3.   Other Services & Charges   IE9CL0S1                 37,826     2009/08-2100UI
   4.   Other Services & Charges   IERM6238                 10,587     2009/08-WIADIS
   5.   Other Services & Charges   JCWT9819                   6,512    2009/06-WIAYTH
   6.   Other Services & Charges   IERM6176                   9,922    2009/08-2050ES
   7.   Subsidies & Transfers      JCTAD993              (697,386)     2010/09-WIAYTH
   8.   Subsidies & Transfers      JCATE167                449,528     2010/08-WIAYTH
   9.   Subsidies & Transfers      JCWT9414                274,389     2009/06-WIAYTH
  10.   Subsidies & Transfers      JEJO1H78              (268,540)     2011/09-WIADIS
  11.   Subsidies & Transfers      JEJO1M33                391,840     2011/08-WIAYTH
  12.   Subsidies & Transfers      JCCFO213              (155,591)     2009/06-WIAYTH
  13.   Subsidies & Transfers      JCTAD993              (164,306)     2010/09-WIAADT
  14.   Subsidies & Transfers      JEJO1J01                205,729     2011/09-WIAADT
  15.   Subsidies & Transfers      JCWT9414              (274,389)     2009/08-WIAYTH
  16.   Subsidies & Transfers      JCTAD993                193,295     2010/07-WIAYTH
  17.   Subsidies & Transfers      JEJO1M33                208,602     2011/08-WIAYTH
  18.   Subsidies & Transfers      JCWT9594              (155,591)     2009/08-WIAYTH
  19.   Subsidies & Transfers      JEJO1E68              (155,000)     2011/10-WIAYTH
  20.   Subsidies & Transfers      JCTAD993                313,281     2010/08-WIAADT
  21.   Subsidies & Transfers      JEJO1M13                362,836     2011/09-WIADIS
  22.   Subsidies & Transfers      JEJO1J01              (205,729)     2011/10-WIADIS
  23.   Subsidies & Transfers      JCATE679              (151,094)     2010/10-WIADIS
  24.   Subsidies & Transfers      IEIJ1634                256,106     2010/09-2100UI
  25.   Subsidies & Transfers      JCTAD993                139,902     2010/08-WIAYTH
  26.   Subsidies & Transfers      JCWT9816              (131,339)     2009/08-WIADIS
  27.   Subsidies & Transfers      JCWT9729               (66,848)     2009/06-WIAYTH
  28.   Subsidies & Transfers      DRRM1115                 (5,442)    2010/09-WIADIS
  29.   Contractual Services       JCWT9981             1,600,464      2009/09-REED09
  30.   Contractual Services       JARCLSG1                569,438     2011/09-STREED
  31.   Contractual Services       IEDCF003                132,724     2010/10-2100UI
  32.   Contractual Services       IEDCF011                105,509     2010/10-2100UI
  33.   Contractual Services       IEWT9543                 87,993     2009/09-2100UI
  34.   Contractual Services       IEWT9543                 26,603     2009/08-WIADIS




                                             DC DOES Financial Management of ETA Grants
                                        15                   Report No. 03-13-001-03-315
                                       U.S. Department of Labor – Office of Inspector General



                                                                                    Exhibit
                                                                                    Page 2
Journal Vouchers That Were Not Adequately Supported

                                      Document
Count              Account             Number          Amount         ETA Grant
  35.    Contractual Services        IEDCF001              24,559 2010/10-2100UI
  36.    Contractual Services        IEWT9543              21,999 2009/08-WIAADT
  37.    Contractual Services        IEGW7031            (72,000) 2010/10-2100UI
  38.    Equipment & Equipment
         Rental                      JARCLSG1              400,000    2011/09-STREED
   39.   Subsidies & Transfers       JEJO1M33               60,552    2011/08-STIDIS
   40.   Other Services & Charges    JCWT9368             (27,614)    2009/08-216STP
   41.   Regular Pay-Continuous      PBJO1G61              379,229    2011/09-2050ES
   42.   Regular Pay-Continuous      PBUITRN1            (108,961)    2010/10-2100UE
   43.   Regular Pay – Other         PBRCLES1            (381,076)    2011/10-2050ES
   44.   Regular Pay – Other         PBJO1G00            (171,341)    2011/10-2070UI
   45.   Regular Pay – Other         PBUITRN1              120,044    2010/09-2100UI
   46.   Regular Pay-Continuous      PBTAD945              415,983    2010/08-STIYTH
   47.   Regular Pay-Continuous FT   PBJO1J43               28,823    2011/10-175WTC
   48.   Fringe Benefits – Current
         Personnel                   PBTAD841             (31,126) 2010/10-164ALC
   49.   Fringe Benefits – Current
         Personnel                   PBWT9243             (7,878) 2009/09-164ALC
                                     Net              $2,833,589
Total (Net and Absolute Value)
                                     Absolute        $10,834,955




                                             DC DOES Financial Management of ETA Grants
                                        16                   Report No. 03-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




Appendices




                   DC DOES Financial Management of ETA Grants
              17                   Report No. 03-13-001-03-315
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                  DC DOES Financial Management of ETA Grants
             18                   Report No. 03-13-001-03-315
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix A
Background

DOL’s Assistant Secretary for Employment and Training requested that we audit DC
DOES’ financial administration of workforce grants awarded by DOL’s ETA. ETA
identified significant problems during its fiscal monitoring review of DC DOES. DC
DOES’ mission was to plan, develop, and administer employment-related services to all
segments of the Washington, DC, metropolitan population. DC DOES operated various
locally and federally-funded programs that provided workforce development services,
Unemployment Insurance benefits, compensation to injured workers, and the promotion
of safe and healthy workplaces.

While DC DOES had overall responsibility for reporting grant costs to ETA, the DC OCFO
performed the accounting functions for DC DOES’ financial activities and reporting. For
the past three fiscal years, DC DOES received an average of approximately $27 million
annually in grant funds from ETA for various workforce investment programs. For the
audit period, October 1, 2008, to December 31, 2011, ETA awarded DC DOES 49 grants
totaling $89,006,080. For the same period, DC DOES reported in its FFRs, $63,699,605
in expenditures and remaining funds of $25,306,475.

OMB Circular A-87 establishes the principles and standards for determining costs for
federal awards carried out through grants, cost reimbursement contracts, and other
agreements with state and local governments and federally-recognized Indian tribal
governments.

DC DOES headquarters was located at 4058 Minnesota Avenue, NE, Washington, DC.
In addition, DC DOES had seven Career and Information locations located throughout
DC.




                                               DC DOES Financial Management of ETA Grants
                                          19                   Report No. 03-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   DC DOES Financial Management of ETA Grants
              20                   Report No. 03-13-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

      Did DC DOES have sufficient controls and processes in place to ensure costs
      claimed for ETA grants were supported by the general ledger and were
      reasonable, allocable, and allowable as set forth in federal cost principles?

Scope

The audit covered all 49 ETA grants awarded to DC DOES from October 1, 2008, to
December 31, 2011. DC was awarded $89 million in grants, and reported expenditures
for these grants were $63,699,605. Our review covered costs charged for DC DOES
employees who charged time to multiple programs during the period October 1, 2011,
through August 25, 2012. We examined a sample of 532 expenditures, totaling
$25,449,644.

We conducted our audit work at DC DOES’ main office and ETA’s National Office, both
located in Washington, DC; and the ETA Regional Office in Philadelphia, PA.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective

Methodology

To assess DC DOES internal controls over managing ETA grants, we interviewed key
DC DOES staff and reviewed criteria in OMB Circular A-87, grant provisions, and DC
OCFO and DC DOES policies and procedures. We also analyzed the most recent OMB
Circular A-133 Audit and performed a walkthrough of the grant reporting process. We
evaluated the internal controls that DC DOES had in place regarding grant management
and financial reporting as of July 2012. We conducted interviews with DC OCFO and
DC DOES officials responsible for ETA grant financial accounting and reporting.

To test the completeness of the SOAR general ledger, we reconciled it to total
expenses DC DOES reported in the FFRs, ETA-9130, as of December 31, 2011, for the

                                                DC DOES Financial Management of ETA Grants
                                           21                   Report No. 03-13-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



grants in our audit period. To determine if expenses charged to ETA grants were
allowable, reasonable, and allocable, we tested 460 randomly selected and
72 judgmentally selected transactions in the SOAR general ledger. We reviewed
supporting documentation, such as purchase orders, invoices, and supporting
documents. We tested the journal entries for segregation of duties and proper approval
prior to posting in the general ledger. For indirect non-personnel services fixed costs,
we reviewed the journal vouchers used to charge costs to ETA grant accounts in the
SOAR general ledger to determine if they were supported and in accordance with the
approved indirect cost allocation plan. We also obtained an understanding of how these
costs were charged to ETA grants.

In reviewing personnel services expenditures, we determined how DC DOES
employees charge their time to ETA grant activities. Of 67 employees who worked at
One-Stop centers during FY 2012, we selected and interviewed a judgmental sample of
22 employees. We selected One-Stop Center employees because they had the
maximum potential of working on more than one program. We interviewed the sampled
employees to determine what grants they worked on and how they completed their time
distribution sheets.

Sampling

We stratified the cash expenditures in the universe for the 49 grants into personnel and
non-personnel services and randomly selected 460 transactions. The schedule below
provides the total number and dollar value of expenditures selected within each general
ledger account:

                                                              Sample Dollar
       General Ledger Account          Sample Size               Value
   Non – Personnel
          Other services and Charges            58                  $ 2,470,159
             Subsidies and Transfers            85                    7,105,285
       Equipment & Equipment Rental              1                      400,000
                 Contractual Services            2                    2,169,902
   Personnel
                 Additional Gross Pay           61                      397,473
                       Fringe Benefits          66                    1,242,533
                        Overtime Pay            45                      190,797
             Regular Pay – Full Time            77                    7,203,204
                  Regular Pay - Other           65                    2,196,991
   TOTALS                                      460                  $23,376,344

Of the 460 non-personnel services and personnel services transactions we selected for
testing, 84 were journal vouchers totaling $19,039,257; 41 non-personnel services
expenses totaling $9,781,478; and 43 personnel services expenses totaling $9,257,779.
DC DOES used these journal vouchers to reclassify expenses, adjust amounts, and/or

                                                DC DOES Financial Management of ETA Grants
                                           22                   Report No. 03-13-001-03-315
                                          U.S. Department of Labor – Office of Inspector General



transfer expenses between grants. We reviewed the journal vouchers to determine if
they were adequately supported.

We also reviewed a judgmental sample of transactions for indirect non-personnel
services fixed costs that were charged to ETA grants for the audit period, as shown in
the table below. DC DOES used six SOAR general ledger accounts to account for these
costs.

                                                      Dollar Value of
  General Ledger Account           Sample Size           Sample
  Energy and Building Rental                12                 $112,577
  Occupancy Fixed Costs                      5                   31,557
  Rentals - Land & Structures                5                1,106,475
  Security Services                          8                  389,191
  Supplies and Materials                    32                  210,115
  Telephone                                 10                  244,385
  Total                                     72               $2,094,300

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing DC DOES policies and procedures related
to grant financial reporting. We confirmed our understanding of these controls and
procedures through interviews and documentation review and analysis. We evaluated
internal controls used by DC DOES for reasonable assurance that the payment of
invoices were done according to federal requirements. Our consideration of DC DOES
internal controls for payment of invoices would not necessarily disclose all matters that
might be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.

We relied on the computer-processed data contained in DC DOES general ledger. We
assessed the reliability of the data by: (1) comparing the general ledger to amounts
reported on the FFRs - ETA 9130, and (2) interviewing DC DOES financial officials
knowledgeable of the data. Based on these tests and assessments, we concluded the
data was sufficiently reliable to use in meeting the audit objective.




                                                DC DOES Financial Management of ETA Grants
                                           23                   Report No. 03-13-001-03-315
                                           U.S. Department of Labor – Office of Inspector General



Criteria

We used the following criteria to perform this audit:

   •   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
       Governments, Revised May 2004, as codified in Title 2, Code of Federal
       Regulations, Part 225, August 8, 2005

   •   EDRC Policies and Procedures, Volume XII, September 30, 2010




                                                 DC DOES Financial Management of ETA Grants
                                            24                   Report No. 03-13-001-03-315
                                  U.S. Department of Labor – Office of Inspector General



                                                                         Appendix C
Acronyms

DC         District of Columbia

DC DOES    District of Columbia, Department of Employment Services

DOL        U.S. Department of Labor

EDRC       Economic Development and Regulation Cluster

ETA        Employment and Training Administration

FARS       Financial Administration and Reporting System

FFR        Federal Financial Report

FTE        Full-Time Equivalent

FY         Fiscal Year

OCFO       Office of the Chief Financial Officer

OFRM       Office of Finance and Resource Management

OIG        Office of Inspector General

OMB        Office of Management and Budget

SOAR       System of Accounting and Reporting

WIA        Workforce Investment Act




                                         DC DOES Financial Management of ETA Grants
                                   25                    Report No. 03-13-001-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   DC DOES Financial Management of ETA Grants
              26                   Report No. 03-13-001-03-315
                               U.S. Department of Labor – Office of Inspector General



                                                                      Appendix D
ETA Response to Draft Report




                                     DC DOES Financial Management of ETA Grants
                                27                   Report No. 03-13-001-03-315
U.S. Department of Labor – Office of Inspector General




      DC DOES Financial Management of ETA Grants
 28                   Report No. 03-13-001-03-315
                                   U.S. Department of Labor – Office of Inspector General



                                                                          Appendix E
DC DOES Response to Draft Report




                                         DC DOES Financial Management of ETA Grants
                                    29                   Report No. 03-13-001-03-315
U.S. Department of Labor – Office of Inspector General




      DC DOES Financial Management of ETA Grants
 30                   Report No. 03-13-001-03-315
U.S. Department of Labor – Office of Inspector General




      DC DOES Financial Management of ETA Grants
 31                   Report No. 03-13-001-03-315
U.S. Department of Labor – Office of Inspector General




      DC DOES Financial Management of ETA Grants
 32                   Report No. 03-13-001-03-315
U.S. Department of Labor – Office of Inspector General




      DC DOES Financial Management of ETA Grants
 33                   Report No. 03-13-001-03-315
U.S. Department of Labor – Office of Inspector General




      DC DOES Financial Management of ETA Grants
 34                   Report No. 03-13-001-03-315
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix F
Acknowledgements

Key contributors to this report were Michael Hill (Audit Director), Michael Elliott (Audit
Manager), Barry Weiss, Theodore Lawson, Goleda Sutton-Watson, Janet Cucunato,
Miguel Hughes, and Ajit Buttar.




                                                  DC DOES Financial Management of ETA Grants
                                             35                   Report No. 03-13-001-03-315
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
